Report No. SPO-2010-008                 September 30, 2010




                 Quality Assurance Review

                          of the

        Defense Education Activity Hotline Program
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Our mission is to to provide assessment oversight that facilitates
                                                                                                                     informed, timely decision-making by senior leaders of the DoD and
                                                                                                                     the U.S. Congress, addressing priority national security objectives.
      Vision
         One professional team strengthening the integrity, efficiency, 

                   and effectiveness of the Department of Defense 
                                                  General Information
                               programs and operations. 

                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department 
                                                               Deputy Inspector General for Special Plans & Operations
                                                                                                                                                Department of Defense Inspector General
             of Defense personnel, programs and operations to support the 

                                                                                                                                                           400 Army Navy Drive
                  Department's mission and serve the public interest.

                                                                                                                                                        Arlington, VA 22202-4704




                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE



                                                                                                                       hot line
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving                                                 make a difference   Report                        www.dodig.mil/hotline
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in                                                800.424.9098
improvements to the Department. DoD IG provides guidance and recommendations to the Department of                                                                                Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                 Suspected Threats to Homeland Security
Defense and the Congress.                                                                                              Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
This page intentionally left blank.
                            Quality Assurance Review of the Defense Education Activity Hotline Program
                                                     September 30, 2010 Report No. SPO-2010-008



               Results in Brief: Quality Assurance
               Review of the Defense Education Activity
               Hotline Program

What We Did
DoD Instruction 7050.01 "Defense Hotline Program," December 17, 2007, requires the
DoD Inspector General (DoD IG) to conduct Quality Assurance Reviews (QAR) of DoD
Component Hotline Programs. Specifically, the Inspector General of the Department of
Defense, as the principal advisor to the Secretary of Defense on all matters relating to the
detection and prevention of fraud, waste, abuse, and mismanagement, shall:

       Conduct periodic QARs of DoD Component implementation of the Defense Hotline and of
       Component hotlines, providing oversight and follow-up to ensure that reported allegations are
       appropriately evaluated and acted on and that the findings and conclusions of any inquiry are
       fully documented by the investigating organization.

We selected the Defense Education Activity (DODEA) for a QAR to verify that
complaints were processed properly and that files contained adequate documentation to
support Defense Hotline Completion Report findings and conclusions.

We reviewed 52 case files which included 28 cases referred by the DoD IG Hotline, and
24 cases internally generated by DODEA that were completed during the previous 12 to
18 months, from March 2008 to August 2009. We were able to complete reviews of 22
case files with information available in files at the DODEA Office of Compliance and
Assistance. We requested additional information and documentation from DODEA for
30 cases from world-wide field offices where the hotline inquiries were conducted.
DODEA was able to provide 18 of the 30 field files requested.

What We Found
We found that:

   • The DODEA hotline staff did not comply with the DoDI 7050.01 requirement to
     submit written requests for extension, explaining the reason for the delay and the
     anticipated completion date when Hotline Completion Reports were not submitted
     within 90 days of referral for nine cases.

   • Twelve case files did not contain complete documentation as required by
     DoDI 7050.01.



                                                     i
                        Quality Assurance Review of the Defense Education Activity Hotline Program
                                                 September 30, 2010 Report No. SPO-2010-008

   • Hotline Completion Reports (HCRs) were not prepared and submitted in six cases
     when required, and in six other cases, HCRs that were submitted either were
     incomplete or did not comply with DoDI 7050.01reporting requirements.

What We Recommend
The Director, DODEA, should strengthen DODEA internal hotline quality control
procedures to ensure that:

   • The DODEA Office of Compliance and Assistance establishes a system to
     monitor hotline cases to ensure that, for non-criminal investigations, HCRs are
     submitted within 90 days of referral, and if not completed within that timeframe
     that a written request for extension be submitted stating the reason for the delay
     and the anticipated completion date.

   • The DODEA Office of Compliance and Assistance establishes a system to ensure
     that case files for completed DoD hotline cases are fully documented, support
     findings and conclusions, and are retained in accordance with DoDI 7050.01 and
     Washington Headquarters Services Administrative Instruction 15, Volume II.

   • The DODEA Office of Compliance and Assistance conducts quality assurance
     reviews of completed hotline cases to ensure that in every case where an HCR is
     required, that an HCR satisfying the requirements of DoDI 7050.01 is prepared
     and provided to the Defense Hotline for referred cases, and that a HCR is prepared
     and provided to the DODEA office of Assistance and Compliance for internally
     generated cases.

Management Comments
The Acting Director, Defense Education Activity, concurred with our recommendations
and provided responsive comments. See the recommendation table below.


Recommendations Table
       Management              Recommendations Requiring            No Additional Comments
                                      comment                              Required
Director DODEA                                                                 A
Director DODEA                                                              B.1, B.2




                                              ii
                                       Quality Assurance Review of the Defense Education Activity Hotline Program
                                                                September 30, 2010 Report No. SPO-2010-008


Table of Contents
Results in Brief: Quality Assurance Review of the Defense Education Activity Hotline Program
................................................................................................................................... i
   What We Did.................................................................................................................... i
   What We Found ............................................................................................................... i
   Management Comments .................................................................................................ii
   Recommendations Table .................................................................................................ii
   Objective ......................................................................................................................... 1
   Background ..................................................................................................................... 1
   Scope and Methodology................................................................................................. 3
   Results – Cases Not in Compliance with DoDI 7050.01.................................................. 5
   A. Timeliness of Completed Inquiries ............................................................................ 5
   B. Case File Documentation ........................................................................................... 7
Appendix A – DoDEA Announcement Letter.............................................................. 11
Appendix B – Checklist for Reviewing Closed Hotline Files......................................... 13
Appendix C – Management Comments ..................................................................... 15




Acronyms and Abbreviations
DODEA                      Department of Defense Education Activity
DoDI                       Department of Defense Instruction
HCR                        Hotline Completion Report
OIG                        Office of the Inspector General
QAR                        Quality Assurance Review
USD (P&R)                  Undersecretary of Defense for Personnel and Readiness



                                                                        1
Quality Assurance Review of the Defense Education Activity Hotline Program
                         September 30, 2010 Report No. SPO-2010-008




     This page intentionally left blank.
                                Quality Assurance Review of the Defense Education Activity Hotline Program
                                                         September 30, 2010 Report No. SPO-2010-008


Objective
We announced this review on August 10, 2009 (Appendix A). In accordance with our
responsibilities under DoDI 7050.01, we evaluated the DODEA Hotline Program to
determine whether complaints were processed properly, timely, and that files contained
adequate documentation to support Defense Hotline Completion Report findings and
conclusions.

Background
The Defense Hotline
The Defense Hotline is an important avenue for reporting fraud, waste, abuse, and
mismanagement. To date, the Defense Hotline has received more than 228,000 calls and
letters. 1 As a result of Defense Hotline investigations, the Government has saved or
recovered $425 million. 2 More importantly, many of the cases resulted in safer products
and equipment for our Military personnel and Defense Department employees.

The Defense Hotline is a system wherein complaints are received, evaluated,
investigated, and corrective measures are instituted when appropriate. The DoD IG
Hotline staff refers complaints to the appropriate DoD Component. The Hotline staff
reviews all completed investigations to ensure all aspects of the complaint were
addressed, inquiries were conducted properly, and appropriate corrective actions were
taken based on stated findings and conclusions. The Hotline staff also works closely with
DoD Components to ensure that complaints are efficiently and effectively investigated
and reported. Hotline operations and procedures are set forth in the DoD Instruction
7050.01,"Defense Hotline Program," December 17, 2007.

DoDI 7050.01states that the DoD IG shall:

          Conduct periodic QARs of DoD Component hotline programs in accordance with paragraph 5.1.3
          to verify that complaints are processed properly and that files contain adequate documentation
          to support Defense Hotline Completion Report findings and conclusions. The QAR is an analysis
          of the quality of the inquiry based on the documentation contained in the completed hotline
          case file and an evaluation of the timeliness, independence, objectivity, and overall adequacy of
          the hotline inquiry.

          The QAR examines hotline inquiries completed during the previous 12 to 18 months, and
          includes cases referred to the DoD Component by the Defense Hotline and those received
          directly by the DoD Component hotline. The analysis focuses on compliance with policy and
          procedures, and on identification of systemic strengths or weaknesses in the manner in which
          the DoD Component conducts its inquiries.



1
    http://www.dodig.mil/HOTLINE/hotline1.htm accessed May 3, 2010.
2
    Ibid.


                                                         1
                                Quality Assurance Review of the Defense Education Activity Hotline Program
                                                         September 30, 2010 Report No. SPO-2010-008

Referral for Action
Defense Hotline allegations referred to the DoD Component for action are allegations
that shall be resolved by the DoD Component, may be an indication of a systemic
problem within the Component, or have been determined through the Defense Hotline
review process as requiring DoD Component attention. 3 In response to an allegation
referred for action, the DoD Component shall conduct an inquiry and provide a Defense
Hotline Completion Report to the Defense Hotline.

Referral for Information
Complaints or disagreements that do not require intervention by the DoD Component, but
should be brought to the Component's attention are referred for information. These
referrals do not require a Defense Hotline Completion Report unless the DoD Component
decides to conduct an inquiry that results in corrective action.


The Defense Education Activity Hotline Program
The Office of Compliance and Assistance serves as DODEA's control point for all DoD
IG hotline referrals and administrative investigations. The DODEA Office of
Compliance and Assistance has the responsibility for ensuring that all hotline complaints
receive appropriate attention, that all allegations are addressed, and that responses are
provided to the DoD IG as required. The Office of Compliance and Assistance also
receives referrals directly from DODEA internal sources, and maintains a tracking system
for all hotline cases.

When the Office of Compliance and Assistance receives a complaint referral, they
determine the nature of the complaint and forward the complaint to the appropriate
management official for review. The Office of Compliance and Assistance staff assists
program officials in determining the optimum manner to obtain information or evidence
and report inquiry results.




3
    DoD Instruction 7050.01, “Defense Hotline Program,” December 17, 2007.


                                                        2
                        Quality Assurance Review of the Defense Education Activity Hotline Program
                                                 September 30, 2010 Report No. SPO-2010-008


Scope and Methodology
We conducted this review in accordance with the standards established by the President’s
Council on Integrity and Efficiency (now the Council of the Inspectors General on
Integrity and Efficiency) published in the Quality Standards for Inspections, January
2005.

We developed a checklist (Appendix B) that we used to do the case analysis of hotline
inquiries as part of our evaluation of the DODEA Hotline Program. Those inquiries
included cases referred by the DoD IG Hotline Office to DODEA and self generated
cases initiated within DODEA. We developed the checklist based on the documentation
requirements for a Defense Hotline Completion Report, and QAR case evaluation criteria
set forth in DoDI 7050.01, Enclosures 2 and 3, respectively. It provided a reasonable
methodology to capture our observations and conclusions in concert with the review
objectives. The elements in DoDI 7050.01 used to develop the checklist included such
items as timeliness of inquiry, independence of investigator, case file documentation, and
adequacy of inquiry. The checklist also includes the elements required to be included in
Defense Hotline Completion Reports. Specifically, our analysis focused on compliance
with policy and procedures and identification of systemic strengths or weaknesses in the
manner in which the DODEA conducts inquiries.

We reviewed 52 case files which included 28 cases referred by the DoD IG Hotline, and
24 cases internally generated by DODEA that were completed during the previous 12 to
18 months, from March 2008 to August 2009. This represented all of the hotline cases
completed by DODEA during that period. We were able to complete our review of 22
cases using files at the DODEA Office of Compliance and Assistance. We requested that
the DODEA Office of Compliance and Assistance obtain supporting case files from the
DODEA field offices for 30 case files for which there was incomplete documentation in
the summary files located at the DODEA Office of Compliance and Assistance or the
DoD IG Hotline Office. The DODEA Office of Compliance and Assistance was able to
obtain 18 case files from field offices but reported that 12 case files were no longer
available from the field offices for a variety of reasons.




                                              3
                        Quality Assurance Review of the Defense Education Activity Hotline Program
                                                 September 30, 2010 Report No. SPO-2010-008

The DoD IG Hotline cases referred for action or information that we reviewed are listed
on tables 1 and 2, respectively.

                  Table 1. Cases Referred for Action by the DoD IG Hotline
                                Case                    Result of DODEA
                 Item
                               Number                     Investigation
                   1            88223                      Not Substantiated
                   2           105508                 Partially Substantiated
                   3           105968                      Not Substantiated
                   4           106039                      Not Substantiated
                   5           106403                 Partially Substantiated
                   6           106477                      Not Substantiated
                   7           106999                      Not Substantiated
                   8           107793                      Not Substantiated
                   9           108056                      Not Substantiated
                  10           109325                           Substantiated
                  11           110013                 Partially Substantiated


                Table 2. Cases Referred for Information by the DoD IG Hotline
                               Case                    Result of DODEA
                 Item
                              Number                      Investigation
                    1         104107                            Substantiated
                    2         105278                    No Action Required
                    3         106268                            Substantiated
                    4         106432                    No Action Required
                    5         106785                            Substantiated
                    6         106921                    No Action Required
                    7         107305                  Partially Substantiated
                    8         108000                    No Action Required
                    9         108405                  Partially Substantiated
                   10         108617                    No Action Required
                   11         108902                       Not Substantiated
                   12         108939                    No Action Required
                   13         109157                  Partially Substantiated
                   14         109215                       Not Substantiated
                   15         110061                    No Action Required
                   16         111249                       Not Substantiated
                   17         107125                    No Action Required




                                              4
                           Quality Assurance Review of the Defense Education Activity Hotline Program
                                                    September 30, 2010 Report No. SPO-2010-008

DODEA internally generated cases that we reviewed are listed on Table 3.

                              Table 3. DoDEA Internally Generated Cases
                                        Case                   Result of DODEA
                         Item
                                       Number                    Investigation
                          1             77-08                          Substantiated
                          2            117-08                     Not Substantiated
                          3            146-08                     Not Substantiated
                          4            195-08                     Not Substantiated
                          5            218-08                     Not Substantiated
                          6            231-08                     Not Substantiated
                          7            273-08                     Not Substantiated
                          8            280-08                Partially Substantiated
                          9            362-08                     Not Substantiated
                         10            383-08                     Not Substantiated
                         11            384-08                Partially Substantiated
                         12            437-08                     Not Substantiated
                         13            444-08                     Not Substantiated
                         14             20-09                     Not Substantiated
                         15             52-09                Partially Substantiated
                         16             58-09                     Not Substantiated
                         17             63-09                     Not Substantiated
                         18            105-09                     Not Substantiated
                         19            104-09                     Not Substantiated
                         20            143-09                Partially Substantiated
                         21            160-09                     Not Substantiated
                         22            180-09                Partially Substantiated
                         23            240-09                     Not Substantiated
                         24            329-09                     Not Substantiated



Results – Cases Not in Compliance with DoDI 7050.01.
Twenty one of 52 cases reviewed did not meet all of the DoDI 7050.01 requirements,
including those for timeliness, reporting, and documentation. Those cases are listed and
discussed in findings sections A and B.

A. Timeliness of Completed Inquiries
DoD Instruction 7050.01, paragraph 6.2.5 requires that DoD Component Hotline
Coordinators:

      Prepare a Defense Hotline Completion Report using the format in Enclosure 2, and submit it to
      the Defense Hotline through the DoD Coordinator within 90 days (180 days for criminal
      investigations and audits) from the date the complaint was transmitted by the Defense Hotline.
      When necessary, requests for extensions of these timeframes shall be in writing to the Defense
      Hotline stating the reason for the delay and the anticipated completion date.



                                                    5
                        Quality Assurance Review of the Defense Education Activity Hotline Program
                                                 September 30, 2010 Report No. SPO-2010-008

The DODEA Office of Compliance and Assistance did not have an adequate process to
monitor hotline cases to ensure that, for non-criminal hotline investigations, HCRs are
submitted within 90 days of receipt, or that when an investigation exceeds 90 days ensure
that a written request for extension is submitted stating the reason for the delay and the
anticipated completion date.

We found that for 6 of 11 cases that were referred for action by the Defense Hotline,
written requests for extension were not submitted when the investigations were not
completed within 90 days. In 3 internally generated cases, the DODEA Office of
Compliance and Assistance hotline coordinator did not ensure completion or document
the granting of an extension for internally generated cases. Those 9 cases that took over
90 days to complete are listed on Tables 4 and 5 below for DoD IG Defense Hotline
referred and DODEA internally generated cases, respectively.

                        Table 4. DoD IG Referred Cases Over 90 Days
                                Without Request for Extension
                               Case        Number of Days to Complete
                    Item
                             Number
                      1        88223         No closing date reported*
                      2       105508                    148
                      3       106039                    410
                      4       106477                    230
                      5       107793                     98
                      6       109325                    139

                   * Closed by the Defense Hotline May 18, 2008


                  Table 5. DoDEA Internally Generated Cases Over 90 Days
                              Without Request for Extension
                              Case              Number of Days
                   Item
                             Number               to Complete
                     1        20-09                   199
                     2        52-09                   133
                     3        63-09                    99




                                               6
                        Quality Assurance Review of the Defense Education Activity Hotline Program
                                                 September 30, 2010 Report No. SPO-2010-008



Recommendations, Management Comments, and Our
Response
A. Timeliness of Completed Inquiries
We recommend that the Director, DODEA, strengthen DODEA internal hotline quality
control procedures to ensure that the DODEA Office of Compliance and Assistance
establishes a system to monitor hotline cases to ensure that, for non-criminal hotline
investigations, HCRs are submitted within 90 days receipt, and if not completed within
that timeframe prescribed by DoDI 7050.01, that for:

       a. cases referred by the DoD IG, submit a written request for extension to the DoD
       Hotline stating the reason for the delay and the anticipated completion date;

       b. cases generated internally, ensure completion of documentation stating reason
       for delay and request for extension from DODEA Office of Compliance and
       Assistance.

Defense Education Activity Comments
The Acting Director, Defense Education Activity, concurred with comment, and stated
that the DoDEA Office of Compliance and Assistance will ensure that hotline inquiries
are completed within 90 days of receipt. If not completed within that timeframe, written
requests for an extension will be submitted to the DoD IG stating the reason for the delay
and the anticipated completion date.

Our Response
The Acting Director, Defense Education Activity comments are responsive. No
additional comments are required.

B. Case File Documentation
Finding B.1 - Working Paper Support

DoD Instruction 7050.01 provides guidance to investigators on the types of data and
documents which should be included in case files. DoD Instruction 7050.01, paragraph
6.2.6, requires that each Defense Hotline case file contain documentation that supports
the hotline inquiry findings and conclusions. This includes the Defense Hotline referral,
the Defense Hotline Completion Report, when required, a description of the actions taken
by the examining official to determine the findings, the complete identity of all witnesses,
the dates of and information relayed during interviews, specific details, and locations of



                                              7
                              Quality Assurance Review of the Defense Education Activity Hotline Program
                                                       September 30, 2010 Report No. SPO-2010-008

all documents reviewed during the examination, and a description of any other actions the
DoD Component took as a result of the inquiry.

Washington Headquarters Services (WHS) Administrative Instruction (AI) 15, Volume
II, Subject: Office of the Secretary of Defense (OSD) Records Management Program –
Records Disposition Schedules, April 18, 2008 states that Grievance, Disciplinary, and
Adverse Action Files are to be retained for at least 4 years after final decision and may be
destroyed thereafter but no later than 7 years after the case is closed. 4

As previously noted, for 30 of the 52 allegations reviewed there was incomplete
documentary evidence in the case files located at the DODEA Office of Compliance and
Assistance to fully support investigator findings and conclusions in conformance with
DoDI 7050.01. We requested the complete case files containing the working papers for
these 30 cases from the field offices where the inquiries were conducted be provided by
DODEA. DODEA Office of Compliance and Assistance was able to provide additional
documentation for 18 case files, but was unable to provide additional information for 12
case files because examining officials who conducted the inquiries had either transferred
or retired, but did not leave complete working paper files. Those 12 cases are listed in
Table 6.

                                   Table 6. Incomplete Case Files
                                                         Case
                                      Item
                                                       Number
                                         1               88223
                                         2              105278
                                         3              106477
                                         4              106785
                                         5              106999
                                         6              108056
                                         7              108405
                                         8              108939
                                         9              109157
                                        10               77-08
                                        11               20-09
                                        12              329-09




4
 Washington Headquarters Service Administrative Instruction 15, Volume II, Subject: Office of the Secretary of
Defense (OSD) Records Management Program – Records Disposition Schedules, April 18, 2008, section 202-49
page 44.


                                                        8
                        Quality Assurance Review of the Defense Education Activity Hotline Program
                                                 September 30, 2010 Report No. SPO-2010-008




RECOMMENDATION B.1
We recommend that the Director, DODEA, require the Office of Compliance and
Assistance to establish a system to ensure that case files for completed DoD hotline cases
are fully documented, support findings and conclusions, and are retained in accordance
with DoDI 7050.01 and WHS AI 15, Volume II.

Defense Education Activity Comments
The Acting Director, Defense Education Activity, concurred with comment, and stated
that during the course of the review it was determined that some investigative working
papers (case file documentation), which are normally retained by the assigned
investigator were not available due to personnel transfers and retirements. The Acting
Director reaffirmed that in the future, DoDEA will ensure that working papers will be
electronically scanned and retained at both the Area Office and Headquarters level.

Our Response
The Acting Director, Defense Education Activity’s comments are responsive. No
additional comments are required.

FINDING B.2 Hotline Completion Reports
The DODEA Office of Compliance and Assistance does not have an adequate process to
ensure that Hotline Completion Reports (HCR) are prepared for every case by the
investigating official or the DODEA Office of Compliance and Assistance Hotline staff.
Further, the DODEA Office of Compliance and Assistance does not have an adequate
process for ensuring that Hotline Completion Reports that have been prepared are
complete and comply with DoDI 7050.01 when forwarded to the DoD IG Defense
Hotline.

We determined that 41 of the 52 allegations reviewed required preparation of an HCR in
accordance with DoDI 7050.01, paragraphs 3.2 and 3.3, and Enclosure 2. They included
15 cases referred for action, 2 cases referred for information where the allegations were
partially substantiated, and all 24 DODEA internally generated cases. We considered
internally generated cases for processing as referred for action.

We found that twelve cases did not comply with DoDI 70501.01 requirements for HCRs.
For six cases there was no HCR prepared. In 6 of 35 cases where HCRs were prepared,
they did not comply with the requirements of DoDI 7050.01. Those cases are listed on
Tables 7 and 8.




                                              9
                        Quality Assurance Review of the Defense Education Activity Hotline Program
                                                 September 30, 2010 Report No. SPO-2010-008

                     Table 7. DoD IG Referred Cases - No/Incomplete HCR
                             Case                   Reason for
                 Item
                            Number               Noncompliance
                   1        106999              No HCR Prepared
                   2        108405               Incomplete HCR
                   3        106432               Incomplete HCR
                   4        106268               Incomplete HCR
                   5        106403               Incomplete HCR
                   6        109157               Incomplete HCR


             Table 8. DODEA Internally Generated Cases – No/Incomplete HCR
                           Case                     Reason for
                Item
                          Number                 Noncompliance
                  1        77-08                 No HCR Prepared
                  2        20-09                 No HCR Prepared
                  3       240-09                 No HCR Prepared
                  4       329-09                 No HCR Prepared
                  5        63-09                 No HCR Prepared
                  6        52-09                  Incomplete HCR



RECOMMENDATION B.2
We recommend that the Director, DODEA, strengthen DODEA internal hotline quality
control procedures to ensure that in every case where an HCR is required, that a HCR
satisfying the requirements of DoDI 7050.01 is prepared and provided to the:

      a. Defense Hotline for referred cases; and

      b. DODEA office of Assistance and Compliance for internally generated cases.

Defense Education Activity Comments
The Acting Director, Defense Education Activity, concurred with comment, and stated
that DoDEA will establish a schedule for conducting periodic Quality Assurance
Reviews (QAR) with each of their Area Offices and that QARs can be conducted in
conjunction with periodic investigations training that is provided to each of the DoDEA
Areas. The Acting Director stated further that DoDEA Office of Compliance will also
ensure that Hotline Completion Reports are completed on hotline cases as required by
DoDI 7050.01

Our Response
The Acting, Director Defense Education Activity, comments are responsive. No
additional comments are required.




                                             10
           Quality Assurance Review of the Defense Education Activity Hotline Program
                                    September 30, 2010 Report No. SPO-2010-008



Appendix A – DoDEA Announcement Letter




                                11
Quality Assurance Review of the Defense Education Activity Hotline Program
                         September 30, 2010 Report No. SPO-2010-008




     This page intentionally left blank.




                     12
                                             Quality Assurance Review of the Defense Education Activity Hotline Program
                                                                      September 30, 2010 Report No. SPO-2010-008



Appendix B – Checklist for Reviewing Closed
Hotline Files
           1000 Hotline Case Number                                                                  I   I
           IQuality Assurance Review Completion Date & Time
           Hotline Completion Report (HCR)lReport          of Investigation    (ROI�OI
  A
           7050.01     E2.2
 A1        What is the Inquiry Officials name? (Last, First, Middle Initial)

 A2        What is their Rank (and component) or Grade?
 A3        What is their duty position name?
 A4        What is their telephone number?
 A5        What is their organization?

 A6        What is the case number (Hotline Control Number)?

 A7        What is the subject of the inquiry?
 AS        What is the Referral Code?--(Action or Information)
           Scope   t:A Inquiry,   Findings, Conclusions, and Recommendations �oOI
 A1
           7050.01-E2.2.6
 A1.1      E2.2.6.1.   ScoWl oflnguic:
           Did the HCR contain a statement of the allegations and identify the organization
 A1.2
           and location the person or persons aaainst INhom the alleaation was made?
           Did the HCL identify scope, nature and manner of inquiry including documents
 AU        revie....d
                    ..e , YJitnesses intervie'Ned for the scope, nature, and manner of the
           inquiry conducted?
 A1.4      Were the inquiries or interviews conducted by telephone or in person?
 A1.5      E2.2.6 .2. Findin2s
 A1.6      Did the findings relate to each allegation?
           Was the identity of intervie......ee s documented in the official file of the component
 A1.7
           conductinQ the inQuirv?
           Did the finding provides a list of documents andlor evidence collected to
 A1 8  .

           SUDPOrt the findinas?
 A1.9      E2.2.6.3. Conclusions and Recommendations
 AU        Did the the official conducting the inquiry state the analysis of the findings and
   0       the conclusions for each alleaation?
 AU        Does the HCRIROI state INhether each allegation against each subject was
  1        substantiated not substantiated or unfounded?
 A1.1      Does the HCR/ROI include comments regarding the adequacy of existing policy
   2       or reg.ulations?
 AU        Does the HCR/ROI note weaknesses in intemal control systems?
 A1.1      Are there any recommended corrective actions noted?
 A1.1
           E2.2.7. Criminal or Regulatory Violations Substantiated
  5
 A1.1      For inquiries invotving economy and efficiency, does the HCR contain a
  6        statement of manaaement actions taken?
           For inquiries invotving criminal or other unlawful acts, does the HCR include the
 A.1.1 results of criminal prosecutions and provide details of all charges and
   7       sentences imposed; the results of administrative actions, reprimands, the value
           of orooertv or mone" recovered or other such actions taken to orevent
 AU        Does the HCR contain the proper security markings?
 AU        Does the HCR contain the location of field working papers and files?

  B        TIMELINESS OF INQUIRY 00017050.01-E3.1.               & (6.2.5)                                   I nspector   Comments
 B.1       HCR/ROI Received Date

 B.2       Referred/Closed Date--Use Referred date for cases referred by DoO-IG.
  B.3      Total days (using julean calendar) to process the case?
           Was the HCR/ROI submitted to the DoD Hotline within         90 days (180 days for
  B.4      criminal investigations and audits) from the date the complaint was transmitted
           by the DoD OIG Hotline?
  B.5      Did the DoD Component Hotline Coordinator request an extension(s) in VYTiting?
 B.6       Did the HCRIROI state the reason for the extension?

  B.7      Did the HCR/ROt provide anticipated completion date?

 B.S       Was the extension approved?
  B.9      Is length of processing time justified by complexity of complaint?
 B. 1 0    Based upon B.3 thru      B.9   is the HCR/ROI considered timely?




                                                                              13

                                     Quality Assurance Review of the Defense Education Activity Hotline Program
                                                              September 30, 2010 Report No. SPO-2010-008



 C     INDEPENDENCE OF INVESTIGATOR-DoDI7050.01-{E.3.2)                                  Inspector Comments
C.1    Was the Investigation Officer (10) independent of personal impairments?
C2     Was the 10 independent of external impairments?
C.3    Was the 10 independent of organizational impairments?
C.4    Is the 10 a subordinate of the individual ...mom the allegations are against?
C.S    Is the HeR/ROI case revie\oVer independent?
C.6    Is the HeR/ROI case review organizatHJn independent?
C.7    Were legal opinions or technical expertise solicted ....e
                                                               .m n appropriate?
       Was the attorney performing the legal review a different individual then one
C.8
       assianed to advise the 10 (and not a subordinate of that individual)?
 D     CASE FILE DOCUMENTATION-DoDI7050.01.£3.3. ( 6 .2.6)                               Inspector Comments

D.1    Did the HeR/ROI identify the complainant?
D.2    Did the HeR/ROI contain a statement of the allegation(s)?
D.3    Did the HeR/ROI identify organization & location at time of allegation?
D.4    Did the HCRfROI identify person(s) against 'Nhom allegation(s) waslwere

D.S    Did the HCRfROI describe scope, nature & manner of inquiry conducted?
D.6    Did the HCR/ROI include all of the documents used in the review?
D.7    Did the HCR/ROI contain location of'MJrking papers and files?
D.8    Was there evidence of an investigation plan in (field) file?
D.9    Were IA'itnesses interviewed?
D.10 Howwere intervie'NS conducted (telephone or in person)?
D.11 Were there adequate notes from statementsltestimony supporting conclusion?
D.12 Did the HCR/ROI discuss mitigating circumstances?
D.13 Did documentation support findings/conclusion?
D.14 Did it appear that the preponderance of evidence standard        'NaS   applied?
D.15 Can the report stand alone without referring to supporting documents?
D.16 Did the HCR/ROI contain the DoD Hotline case number?
D.17 Did the HCR/ROI contain the proper security markings?
       Was the completed HCRIROI forwarded to the Directing Authority with all
D.18
       ap!;!roeriate command/management endorsements?
 E     ADEQUACY OF INQUIRY-DoDI70SG.01·E3.4.                                             Inspector Comments
E1     Were all the allegations in the basic complaint addressed
E.2    Were all key individuals (IA'itnesses and subjects) interviewed?
E3 Were all relevant questions asked?
       Did the Investigating Officer collect and review all pertinent documentation in
E4
       SUDPOrt of his conclusions?
ES     Were legal opinions Of technical expertise solicited 'Nhen appropriate?
       Did the examining official demonstrate a "common sense" approach 'Nhile
E6
       conductinQ this inquiry?
E7     Is the case considered adequate?
 F     Recommended kllon (I&E Inspecto s) Conclusion)                                    Inspector Comments
F.1    Does the case review satisfy 000 Instruction 7050.01?
F.2    Shoukl the case be reopened and reassigned?
F.3    Do you have another recommendation? NOTE: If yes, attach to checklist!
       Name of 000 IG Evaluator        -===>


       Signature of Evaluator     =====>




                                                                       14

           Quality Assurance Review of the Defense Education Activity Hotline Program
                                    September 30, 2010 Report No. SPO-2010-008



Appendix C – Management Comments




                                15
Quality Assurance Review of the Defense Education Activity Hotline Program
                         September 30, 2010 Report No. SPO-2010-008




                     16
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Provide assessment oversight that addresses priority national security
                                                                                                                     objectives to facilitate informed, timely decision-making by senior
                                                                                                                     leaders of the DOD and the U.S. Congress.
      Vision
         One professional team strengthening the integrity, efficiency,
                   and effectiveness of the Department of Defense                                                    General Information
                               programs and operations.
                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department                                                                 Deputy Inspector General for Special Plans & Operations

                                                                                                                                                Department of Defense Inspector General

             of Defense personnel, programs and operations to support the
                                                                                                                                                              400 Army Navy Drive

                  Department's mission and serve the public interest.
                                                                                                                                                            Arlington, VA 22202-4704





                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE



                                                                                                                       hot line
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving                                                 make a difference    Report                        www.dodig.mil/hotline
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in                                                800.424.9098
improvements to the Department. DoD IG provides guidance and recommendations to the Department of                                                                                 Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                  Suspected Threats to Homeland Security
Defense and the Congress.                                                                                              Defense Hotline,The Pentagon, Washington, DC 20301-1900    Unauthorized Disclosures of Classified Information
